>
/*■

Y

No.
IN THE
SUPREME COURT OF THE UNITED STATES
WILLIAM PAUL BURCH
PETITIONER
v.
FREEDOM MORTGAGE CORPORATION, et al
RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
FIFTH CIRCUIT COURT OF APPEALS
20-10498

Proof of service
I, William Paul Burch, do swear or declare that on this date, July 2, 2021, as
required by Supreme Court Rule 29 I have served the enclosed Reply to Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Matthew B. Fronda
420 Throckmorton Street, Ste. 1210

S. DAVID SMITH
sdsmith@bradley.com
1

X
Fort Worth, Texas 76102
Telephone: 817-338-1616
mfronda@padfieldstout.com
Ed Harrell
charrell@hwa.com
Hughes Watters & Askanase
333 Clay, 29th Floor
Houston, TX 11002

600 Travis Street,
Suite 4800
Houston, Texas 77002
(713) 576-0300 Telephone
DAVID C. MILLER
dmiller@bradley.com
4400 Renaissance Tower
1201 Elm St
Dallas, TX 75270
(214) 939-8700

Thomas F Loose
tloose@loceklord.com
Elizabeth K. Duffy
eduffy@lockelord.com
Arthur E. Anthony
aanthony@lockelord.com
2200 Ross Ave,
Suite 2800
Dallas, Tx 75201-6776
Telephone: 214-740-8000

WM. LANCE LEWIS
R. KENDALL YOW
2001 Bryan Street,
Suite 1800
Dallas, Texas 75201
214-880-1833 Telephone
llewis@qslwm.com
kyow@qslwm.com

I declare under penalty of perjury that the foregoing is true and correct.
Respectfully submitted, on July 2. 2021
William Paul Burch
5947 Waterford Drive
Grand Prairie, TX 75052
(817) 919-4853
billburch@worldcrestauctions.com

2

